 Office of Inspector General

 Audit Report




      GRANTS
REGION 4's IMPLEMENTATION AND
 OVERSIGHT OF PERFORMANCE
    PARTNERSHIP GRANTS


       Report No. 1999-P00216

         September 27, 1999
Inspector General Division
 Conducting the Audit:       Southern Audit Division
                             Atlanta, Georgia

Region Covered:              Region 4

Program Office Involved:     Performance Partnership
                             Grants
                                        September 27, 1999

MEMORANDUM

SUBJECT:       Region 4's Implementation and Oversight of Performance Partnership Grants
               Audit Report No. 1999-P00216

FROM:          Mary M. Boyer
               Divisional Inspector General for Audit
               Southern Division

TO:            John H. Hankinson, Jr.
               Regional Administrator
               Region 4

Attached is our final report on Region 4's implementation and oversight of performance
partnership grants. We discussed our findings with your staff and issued a draft report on August
3, 1999 for your review and comments. We extended the standard 30-day response period by an
additional two weeks, but still did not receive any written comments. Therefore, we issued the
final report without your comments.

This audit report contains findings that the Office of Inspector General (OIG) has identified and
corrective actions the OIG recommends. This audit report represents the opinion of OIG, and the
findings in this audit report do not necessarily represent the final EPA position. Final
determinations on matters in this audit report will be made by EPA managers in accordance with
established EPA audit resolution procedures.

ACTION REQUIRED

In accordance with Environmental Protection Agency (EPA) Order 2750, you, as the action
official, are required to provide this office a written response to the audit report within 90 days of
the final audit report date. Your response to the final report should identify any completed or
planned actions related to the report’s recommendations. For corrective actions planned but not
completed by the response date, specific milestone dates are necessary to decide whether to close
this report.
We have no objections to the release of this report to the public. If you have any questions,
please call me or Ken Craiger, Team Leader at (404) 562-9830.

Attachment
                                      Region 4's Performance Partnership Grants


               EXECUTIVE SUMMARY


INTRODUCTION     President Clinton announced the performance partnership
                 grant (PPG) program on March 16, 1995, as part of his
                 Administration’s effort to “Reinvent Environmental
                 Regulation.” A PPG is a multi-program grant awarded to a
                 state from funds otherwise available for categorical grant
                 programs.

                 PPG advocates envisioned a new type of grant which
                 provided: (a) greater flexibility; (b) improved environmental
                 performance; (c) administrative savings; and (d) strengthened
                 federal-state partnerships. The key principle underpinning
                 these expected benefits was that funds from different
                 programs or media were combined and lost their identity. A
                 PPG had a single, integrated budget and recipients did not
                 need to account for grants funds in accordance with the
                 original environmental program sources. Guidance issued by
                 Region 4 in September 1997 also stated that a PPG recipient
                 could move funds to benefit selected projects or programs if
                 it had met negotiated commitments. This flexibility in using
                 grant funds was expected to make PPGs more attractive to
                 grant recipients.

                 This audit is one in a series of PPG audits conducted by the
                 OIG to provide an overall assessment of EPA’s PPG
                 program.

OBJECTIVES       Our audit objectives were to determine if Region 4:

                 P      Had effectively implemented the PPG program to
                        ensure that recipients accomplished overall PPG
                        objectives;

                 P      Negotiated PPG work plans that included adequate
                        financial and programmatic accountability;

                 P      Maintained appropriate oversight to ensure that
                        recipients met work plan commitments and used PPG
                        funds efficiently and effectively.

                             i                          Report No. 1999-P00216
                                         Region 4's Performance Partnership Grants

RESULTS IN BRIEF   Although Region 4's oversight of PPGs ensured that
                   recipients met work plan commitments, it had opportunities
                   to implement a more effective program that realized the
                   flexibility and benefits that PPGs offered. The Revised
                   Interim Guidance (Guidance) published by EPA in the
                   October 6, 1998 Federal Register envisioned a new type of
                   grant which provided the recipient greater flexibility,
                   improved environmental performance, generated
                   administrative savings, and strengthened federal-state
                   partnerships. By fiscal year 1998, three of the eight
                   delegated states responsible for carrying out major
                   environmental programs in Region 4 had applied for and
                   received PPGs. In addition, all eight state agencies
                   responsible for carrying out Pesticides programs in Region 4
                   had applied for, and received relatively small agricultural
                   PPGs.

                   However, we identified several factors that may have
                   reduced participation in Region 4's PPG program and
                   prevented grant recipients from taking full advantage of the
                   benefits and flexibility that PPGs offered. For its part,
                   Region 4 disseminated information about PPG benefits and
                   flexibility that enabled grant recipients to determine if they
                   wanted to participate in the PPG program or retain their
                   separate categorical grants. Our audit disclosed
                   circumstances that led us to believe that improved
                   communications between Region 4 and its grant recipients
                   would have a positive impact on Region 4's overall PPG
                   program. At least two state agencies had misconceptions
                   about PPG benefits and requirements that discouraged their
                   participation in the program. Another state agency reported
                   that its PPG actually increased administrative costs and
                   delayed receipt of EPA funds. The same state agency
                   adhered to the more rigid requirements of categorical grants
                   and was reluctant to undertake multi-media planning and
                   prioritization of work because existing funds were generally
                   needed to meet commitments in the specific media areas that
                   provided the funds and state reporting requirements required
                   that state funds be tracked by media. Collectively, these
                   factors made PPGs less attractive to some of the potential
                   recipients and caused other recipients to restrict their use of
                   grant funds to the specific media that provided the funds.

                               ii                          Report No. 1999-P00216
                                        Region 4's Performance Partnership Grants

                  Although Region 4 officials assured us that negotiating Core
                  Performance Measures (CPMs) with PPG recipients that
                  focused on the measurement of environmental results was a
                  high priority, the goal had not been realized for fiscal year
                  1998. Two factors that contributed to the delay in
                  negotiating CPMs were the absence of specific controls at
                  Region 4 for confirming that CPMs were included in work
                  plans and multi-year work plans that were negotiated before
                  CPMs were fully developed. These delays in negotiating
                  CPMs made it more difficult to measure progress in meeting
                  environmental goals.

RECOMMENDATIONS   We recommend that the Regional Administrator:

                  P      Develop a plan for discussing the PPG concept with
                         grant recipients to ensure that they fully understand
                         the benefits and flexibility offered by this type grant.
                         We further recommend that the Regional
                         Administrator consider designating a specific Region
                         4 representative that is responsible for maintaining
                         ongoing communications with current and potential
                         PPG recipients.

                  P      Strongly encourage PPG recipients to initiate cross-
                         media planning and prioritization of work in order to
                         take full advantage of opportunities to use funds
                         more effectively.

                  P      Work with South Carolina Department of Health and
                         Environmental Control (DHEC) to determine if the
                         specific barriers related to limited funding and state
                         reporting requirements can be resolved or mitigated.

                  P      Work with DHEC to determine if there are options
                         for reducing administrative costs.

                  P      Consider partial funding of PPGs at the beginning of
                         the fiscal year if it is not practical to fully fund all
                         media programs included in the PPG at that time.

                  P      Assign responsibility for monitoring progress in
                         getting applicable CPMs in PPG recipients’ work

                             iii                           Report No. 1999-P00216
                                      Region 4's Performance Partnership Grants

                        plans to a specific individual or office. This
                        individual or office should make periodic reports to
                        the Regional Administrator on the progress that is
                        being made and any obstacles that need to be
                        overcome.

                 P      Determine if it is feasible to renegotiate multi-year
                        work plans with PPG recipients in order to
                        incorporate CPMs that are better indicators of
                        environmental performance.

REGION 4's       We discussed the proposed draft report with Region 4
COMMENTS AND     officials and made some changes based on their input. On
OIG EVALUATION   August 3, 1999, we issued a draft report to the Regional
                 Administrator for review and comment. We extended the
                 standard 30-day response period by an additional two weeks,
                 but still did not receive any written comments. Therefore,
                 we issued the final report without a response from the
                 Regional Administrator.




                           iv                            Report No. 1999-P00216
                                                                                 Region 4's Performance Partnership Grants

                                             TABLE OF CONTENTS

                                                                                                                                   Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

CHAPTERS

1        INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

                   Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

                   Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

                   Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

                   Prior Audit Experience . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

2        REGION 4 COULD IMPROVE THE OVERALL EFFECTIVENESS OF ITS PPG
         PROGRAM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

                   Recipients did not Fully Understand PPG Benefits and Requirements . . . . . . . . . 8

                   PPG Flexibility and Benefits not Fully Utilized by Recipients . . . . . . . . . . . . . . 10

                   Funding Problems and Barriers made PPG less Attractive to Recipients . . . . . . 12

                   Administrative Savings not Consistently Realized . . . . . . . . . . . . . . . . . . . . . . . 14

                   Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

                   Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

                   Region 4's Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

3        REGION 4 COULD IMPROVE PROGRAMMATIC ACCOUNTABILITY BY
         INCREASING THE USE OF CORE PERFORMANCE MEASURES . . . . . . . . . . . . 17

                   Shared Responsibility for Negotiation of CPMs Slowed Progress . . . . . . . . . . . 17

                   Region 4 was Reluctant to Renegotiate Multi-Year Work Plans that Excluded
                   CPMs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

                                                                  v                                       Report No. 1999-P00216
                                                                           Region 4's Performance Partnership Grants

               Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

               Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

               Region 4's Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

APPENDICES

I    ABBREVIATIONS AND DEFINITIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

II   DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27




                                                             vi                                      Report No. 1999-P00216
                               Region 4's Performance Partnership Grants

              CHAPTER 1

          INTRODUCTION

PURPOSE   President Clinton announced the performance partnership
          grant (PPG) program on March 16, 1995, as part of his
          Administration’s effort to “Reinvent Environmental
          Regulation.” A PPG is a multi-program grant awarded to a
          state from funds otherwise available for categorical grant
          programs.

          PPG advocates envisioned a new type of grant which
          provided: (a) greater flexibility; (b) improved environmental
          performance; (c) administrative savings; and (d)
          strengthened federal-state partnerships. The key principle
          underpinning these expected benefits was that funds from
          different media were combined and lost their identity. A
          PPG had a single, integrated budget and recipients did not
          need to account for grants funds in accordance with the
          original environmental program sources. Guidance issued
          by Region 4 in September 1997 also stated that a PPG
          recipient could move funds to benefit selected projects or
          programs if it had met negotiated commitments. This
          flexibility in using grant funds was expected to make PPGs
          more attractive to grant recipients.

          This audit is one in a series of PPG audits conducted by the
          OIG to provide an overall assessment of EPA’s PPG
          program.

          Our audit objectives were to determine if Region 4:

          P      Had effectively implemented the PPG program to
                 ensure that recipients accomplished overall PPG
                 objectives;

          P      Negotiated PPG work plans that included adequate
                 financial and programmatic accountability; and




                    1                            Report No. 1999-P00216
                                  Region 4's Performance Partnership Grants

             P      Maintained appropriate oversight to ensure that
                    recipients met work plan commitments and used
                    PPG funds efficiently and effectively.

BACKGROUND   Congress authorized the award of PPGs in the Omnibus
             Consolidated Rescissions and Appropriations Act of 1996
             and EPA’s fiscal year 1998 Appropriations Act. As detailed
             in EPA’s Guidance, a PPG was a multi-program grant
             awarded to a state or tribe from funds otherwise available
             for categorical grant programs. A state or tribe could apply
             for a PPG that combined funds from two or more of the 17
             eligible grant programs into one or more PPGs. PPG
             recipients could then use the combined funds to carry out
             any of the program activities covered by the PPG. Each
             PPG had a single, integrated budget and recipients did not
             need to account for grant funds by the specific program or
             media that provided the funds.

             The Guidance identified four specific types of benefits that
             were expected to be realized from PPGs: (a) greater
             flexibility; (b) improved environmental performance; (c)
             administrative savings; and (d) strengthened partnerships.

             PPGs were intended to provide states and tribes with the
             flexibility needed to address their most pressing
             environmental priorities across all media and establish
             resource allocations based on those priorities. PPG
             recipients were also expected to develop innovative multi-
             media programs and activities that would be difficult to fund
             with separate categorical grants. Finally, PPG recipients
             had the option of negotiating work plans with EPA that
             covered more than one year.

             PPG recipients were expected to improve environmental
             performance because they were able to establish priorities
             across all environmental programs, and integrate strategic
             goals such as pollution prevention and community-based
             environmental protection into their program planning. The
             Guidance made specific reference to the expectation that
             PPG recipients would be able to coordinate and integrate
             activities which were fragmented under many statutes,
             regulations and programs.

                       2                            Report No. 1999-P00216
                    Region 4's Performance Partnership Grants

PPG recipients were also expected to lower their
administrative costs by reducing the overall number of grant
applications, work plans, reports and certifications
associated with traditional, single media grants. Finally, a
PPG was expected to strengthen partnerships between EPA
and the PPG recipient because they were able to share the
same environmental and program goals and jointly deploy
their unique resources and abilities to accomplish those
goals.

The Guidance described various types of PPGs. The
simplest type of PPG was one in which essentially all of the
recipient’s commitments were contained in separate
categorical work plans. This type of PPG is often referred
to as an “administrative PPG” because the purpose in
obtaining this type of PPG was primarily administrative
flexibility. The Guidance indicated that this type of PPG
was appropriate for PPG applicants seeking administrative
flexibility only based on categorical grant work plans.

A non-administrative PPG is one that replaces the different
categorical work plans with a performance partnership
agreement (PPA). The Guidance defined a PPA as a
negotiated agreement signed by the EPA Regional
Administrator and an appropriate state official. These
agreements typically set out: (1) jointly developed goals,
objectives, and priorities; (2) specific work plan
commitments and the strategies to be used in meeting them;
(3) the roles and responsibilities of EPA and the recipient;
and (4) the measures to be used in assessing progress.
The Guidance indicated that this type of PPG was
appropriate for applicants seeking administrative and
program flexibility. However, the revised PPG Guidance
issued in October 1998 no longer mentions the different
types of PPGs.

PPGs could also be categorized according to whether their
function is agricultural or environmental. An agricultural
PPG combines minor grants or cooperative agreements
within a single media such as Pesticides. Region 4 awarded
pesticide agricultural PPGs to each of its eight states that
totaled approximately $5.2 million. An environmental PPG

          3                           Report No. 1999-P00216
                     Region 4's Performance Partnership Grants

combines major multi-media grants such as Air and Water.
In 1998, Region 4 awarded PPGs in both of these broad
categories. Region 4 awarded environmental PPGs totaling
approximately $18.2 million to the states of Georgia,
Mississippi and South Carolina. Grant recipients that did
not apply for a PPG in fiscal year 1998 received categorical
grants that totaled approximately $50 million.

According to a General Accounting Office (GAO) report
published in June 1999 participation in PPGs and PPAs at
the national level grew from six pilot states in 1996 to 45
states by the end of fiscal year 1998. GAO included a state
in its statistics if it had an agricultural PPG, environmental
PPG or both. Of the 45 states, 31 states had both PPAs and
PPGs, 12 states had PPGs only, 2 states had PPAs only and
5 states did not participate at all. The GAO report also
noted that on a national scale $217 million of the $745
million in state environmental program grants for fiscal year
1998 were consolidated in PPGs.

One of EPA’s fundamental goals was to design and
incorporate accountability provisions in PPGs that began
the process of moving federal, state, and tribal programs
toward the use of results-oriented measures of
environmental and program performance that were
understandable and meaningful to the public. This goal was
to be achieved by negotiating work plan commitments that
focused on the measurement of program and environmental
outcomes and outputs.

On August 20, 1997, EPA’s Deputy Administrator and the
President of the Environmental Council of the States
(ECOS) signed a memorandum detailing their efforts to
develop a revised set of CPMs for use in measuring
environmental progress. Although the memorandum stated
that states were expected to use the CPMs in their PPAs,
EPA and the state had the flexibility to modify, substitute,
or eliminate a particular measure in order to meet specific
needs of the parties involved.




          4                            Report No. 1999-P00216
                                  Region 4's Performance Partnership Grants

SCOPE AND     The audit was conducted in accordance with Government
METHODOLOGY   Auditing Standards issued by the Comptroller of the United
              States. The audit scope was limited to the specific
              objectives cited above and the management controls related
              to these objectives. We did not extend the audit to include
              verification of the specific outputs and outcomes reported
              by the PPG recipients. Findings in the report discuss the
              control weaknesses identified during the audit. Actions
              recommended to address these and other weaknesses are
              included in the recommendation section of this report.

              To accomplish the audit objectives, we reviewed EPA
              regulations applicable to the PPG program and the related
              policies and procedures. We interviewed the Deputy
              Regional Administrator, the Regional Project Officers
              (RPOs), Program Project Officers (PPOs) for the respective
              media areas and representatives from the Grants
              Administration Branch. We visited the two South Carolina
              entities (South Carolina Department of Health and
              Environmental Control and Clemson University’s
              Department of Pesticide Regulation) that received PPGs
              and discussed the PPG program with their representatives.
              For these two entities, we also obtained the CPMs
              applicable to each PPG media area and determined if they
              had been incorporated in the PPG recipient’s work plans for
              fiscal years 1998. Finally, we interviewed officials from the
              states of Alabama and Kentucky to determine why they
              elected to continue receiving categorical grants in lieu of
              converting to PPGs which offered recipients more flexibility
              in addressing environmental issues.

              The audit fieldwork was conducted from February 1999 to
              July 1999. The audit focused primarily on PPG activities
              that occurred during fiscal year 1998. We incorporated
              certain information from a joint management assistance
              review of the fiscal year 1997 PPG awarded to the Georgia
              Environmental Protection Division (EPD). At the request
              of Region 4 representatives, we also extended the audit
              period to include a selective review of fiscal year 1999 PPG
              work plans to determine progress with respect to the
              inclusion of applicable CPMs.


                        5                            Report No. 1999-P00216
                                   Region 4's Performance Partnership Grants

PRIOR AUDIT   The Office of Inspector General (OIG) has not issued any
EXPERIENCE    audit reports related to Region 4's PPG program. However,
              the OIG and Region 4 program officials performed a joint
              management assistance review of the fiscal year 1997 PPG
              awarded to EPD. The joint memorandum, issued in April
              1999, concluded that the PPG reduced administrative
              burden, provided needed flexibility for moving funds
              between media programs and fostered improved attitudes of
              working together. However, the memorandum pointed out
              that Region 4 and EPD needed to place additional emphasis
              on negotiating CPMs that focused on program outcomes
              and environmental results rather than outputs. The
              memorandum also concluded that Region 4's expectations
              concerning the content of EPD’s annual reports and the
              roles and responsibilities of participants involved in mid-
              year and end-of-year program reviews needed to be
              clarified. EPD concurred with all suggestions for
              improvement made by the review team.

              The GAO issued an audit report on the National
              Environmental Performance Partnership System (NEPPS)
              in June 1999. GAO reported that participation in PPAs and
              PPGs at the national level grew from six pilot states in 1996
              to 45 states by 1998. GAO acknowledged that EPA and
              the states had made progress in developing results oriented
              performance measures, but pointed out that obstacles still
              needed to be overcome. The majority of state officials that
              GAO interviewed felt that participation in NEPPS provided
              worthwhile benefits even though it had not brought about
              any significant reduction in reporting requirements or EPA
              oversight.




                        6                            Report No. 1999-P00216
                                Region 4's Performance Partnership Grants

              CHAPTER 2

REGION 4 COULD IMPROVE THE OVERALL
 EFFECTIVENESS OF ITS PPG PROGRAM


           Region 4 management had opportunities to implement a
           more effective PPG program that offered the flexibility and
           benefits envisioned by the Revised Interim Guidance
           published in the Federal Register on October 6, 1998. For
           fiscal year 1998, three of the eight delegated state agencies
           responsible for carrying out major environmental programs
           applied for and were awarded PPGs. Although the eight
           state agencies responsible for carrying out Pesticides
           programs applied for and were awarded agricultural PPGs
           in 1998, these grants had a relatively low dollar value and
           did not offer the recipient flexibility for using funds to
           address environmental problems in other media areas.
           Progress in implementing an effective PPG program in
           Region 4 was affected by several factors. Specifically,
           delegated state agencies: (1) did not fully understand the
           PPG benefits and requirements; (2) did not fully utilize the
           flexibility offered by PPGs for cross-media planning or
           prioritization of work; (3) encountered funding problems
           and other barriers at the state level that made PPGs less
           attractive; and (4) did not consistently realize the
           administrative savings expected from PPGs. As a result,
           Region 4 and its delegated state agencies had not taken full
           advantage of PPG opportunities to effectively address
           environmental problems outside the specific media area that
           provided the grant funds or consistently realized the
           administrative savings that were expected.

           Participation in the PPG program was voluntarily. Grant
           recipients had the option of keeping their categorical grants
           or applying for a PPG. However, the Guidance indicated
           that EPA officials should encourage states to take
           advantage of PPGs and Regional officials should work in
           partnership with states that were interested in pursuing
           PPGs that funded solutions to the highest environmental


                      7                           Report No. 1999-P00216
                                          Region 4's Performance Partnership Grants

                     priorities and ensured that EPA statutory and program
                     requirements were met.

                     In 1998, Region 4 awarded both agricultural and
                     environmental PPGs. The agricultural PPGs related to a
                     single media and combined separate cooperative agreements
                     for various activities such as Pesticides enforcement and
                     certification. In 1998, all eight of Region 4's grantees
                     applied for and received agricultural PPGs that totaled
                     approximately $5.2 million. The environmental PPGs
                     combined major multi-media programs such as Air and
                     Water and offered recipients opportunities for multi-media
                     planning and prioritization of work. In 1998, three of
                     Region 4's delegated states applied for and received
                     environmental PPGs that totaled approximately $18.2
                     million. Region 4 also awarded approximately $50 million
                     in categorical grants to recipients that did not apply for a
                     PPG during fiscal year 1998.

                     The specific barriers that slowed participation in Region 4's
                     environmental PPG program and reduced its overall
                     effectiveness are discussed in the following sections of our
                     report.

RECIPIENTS DID NOT   Certain delegated state agencies in Region 4 had
FULLY UNDERSTAND     misconceptions about PPG benefits and requirements that
PPG BENEFITS AND     may have discouraged them from participating in the
REQUIREMENTS         program or limited their ability to use grant funds more
                     effectively. Because the PPG concept combined various
                     media funds and made them indistinguishable, a grantee was
                     not required to account for funds by the specific program or
                     media that originally provided the funds. Guidance issued
                     by Region 4 in September 1997 further stated that a PPG
                     recipient could move funds to benefit selected projects or
                     programs if it had met negotiated commitments. However,
                     South Carolina, Alabama and Kentucky officials expressed
                     uncertainty about Region 4's expectations concerning their
                     use and accountability of PPG funds.

                     A South Carolina official, who played a key role in deciding
                     whether DHEC applied for a PPG, indicated he was not
                     sure whether Region 4 representatives expected the state to

                                8                           Report No. 1999-P00216
                     Region 4's Performance Partnership Grants

maintain records which would enable a federal auditor to
verify that funds from a specific media were used to meet a
commitment in the work plan for that same media. He
initially stated “his perception” was the state was expected
to maintain such records. He then amended his statement
and said his “fear” was the state was expected to maintain
this information.

Several other South Carolina officials who were involved
with PPGs also indicated they were not certain whether
their offices should maintain these types of detailed records.
An Assistant Bureau Chief told us about an inquiry made by
Region 4 officials concerning how the state used EPA
funds. EPA Headquarters needed the information to satisfy
Government Performance Results Act (GPRA)
requirements. Region 4 officials made it clear that the state
was not required to report this information and they were
prepared to use a formula to estimate how the funds were
spent. However, if the state had more accurate information
readily available and was willing to provide it voluntarily,
Region 4 would use the state’s data. We were told about
the inquiry in the context of our questions concerning the
type of records which the Assistant Bureau Chief thought
the state needed to maintain. This inquiry may have
influenced the state’s perception of what records it needed
to maintain in order to promote goodwill with Regional
counterparts.

Aside from officials in South Carolina, officials in Alabama
and Kentucky also had misconceptions about basic PPG
principles. The Director of the Alabama Department of
Environmental Management (ADEM), who was a key
figure in deciding whether ADEM applied for a PPG,
thought the state still needed to maintain records which
would enable a federal auditor to verify that federal dollars
provided by a specific media were spent on commitments in
the work plan of the same media even if a PPG was
awarded. The Director also thought the state would need
to get EPA’s approval to shift PPG money from the work
plan of one media to the work plan of a different media even
if the commitments in both media work plans had already
been met.

          9                            Report No. 1999-P00216
                                        Region 4's Performance Partnership Grants

                   Similar views were expressed by the Manager of
                   Kentucky’s Planning and Program Coordination Branch, the
                   entity which was responsible for evaluating the merits of
                   applying for a PPG. The Branch Manager also indicated
                   that the same views were held by other Kentucky officials
                   involved in deciding whether the state should apply for a
                   PPG.

                   The lack of ongoing communications between Region 4 and
                   its delegated states may have contributed to misconceptions
                   about the PPG program. For example, the Director of
                   ADEM indicated that he has not had a significant discussion
                   about PPG or PPA concepts with any federal official during
                   the preceding year. Moreover, he did not recall having such
                   a discussion in the prior year. According to the Director, he
                   and his staff had waited to hear how other states’ felt about
                   their PPGs and PPAs before evaluating the concepts to
                   determine potential benefits to ADEM. At the time of our
                   discussion, his understanding was that PPG benefits had not
                   met expectations and were not worth the extra effort. The
                   Director could not estimate the likelihood that ADEM
                   would apply for a PPG, or request the opportunity to
                   negotiate a PPA in the future.

                   In our opinion, grant recipients were less likely to apply for
                   a PPG when they did not fully understand the benefits and
                   flexibility such a grant offered. Also, recipients that had
                   PPGs may have been less likely to employ innovative
                   concepts such as cross-media planning and prioritization of
                   work if they did not fully understand the flexibility that a
                   PPG offered.

PPG BENEFITS AND   Although the PPG concept offered grant recipients great
FLEXIBILITY NOT    flexibility in addressing multi-media environmental
FULLY UTILIZED     problems, delegated states were reluctant to use the
BY RECIPIENTS      flexibility and generally adhered to the same rigid
                   constraints imposed by categorical grants. When a PPG
                   replaces two or more categorical grants, funds from
                   different media are combined in a common pool and become
                   indistinguishable. Some Region 4 officials described this as
                   a process of converting Air or Water dollars to “vanilla
                   dollars.” When conceptualized this way, PPG advocates

                             10                            Report No. 1999-P00216
                     Region 4's Performance Partnership Grants

expected recipients to conduct planning across media lines
in order to direct funds to the most critical environmental
problems regardless of the specific media involved.

Aside from the impact of multi-media planning, PPG
recipients had opportunities for prioritizing the effective use
of “excess funds.” Under the categorical grant process, any
media funds that remained after all media work plan
commitments were met, had to be spent on a commitment
for the same media. Once all commitments in media work
plans had been met, Region 4 guidance permitted PPG
recipients to move funds to benefit selected projects or
programs. Despite these opportunities, we did not see any
evidence that DHEC officials did anything different under
their fiscal year 1998 PPG than under their fiscal year 1997
categorical grants, except for the administrative activity that
combined six categorical grants into a single PPG. For
example, DHEC media officials negotiated separate work
plans exactly as they did when they received categorical
grants, and they monitored the execution of these work
plans exactly as they did when they received categorical
grants. At the end of the PPG period, DHEC retained all
carryover (unspent) funds in the same media that originally
provided the funds, exactly as it did under the previous
categorical grants.

We recognize that DHEC chose the simplest type of PPG,
an “administrative PPG,” which contemplated the continued
use of separate categorical media work plans. We further
recognize that the major reason for obtaining the PPG was
to obtain administrative savings. However, this did not
preclude DHEC officials from conducting cross-media
planning and prioritization of work. For fiscal year 1998,
DHEC basically followed the more rigid categorical grant
requirements even though the Assistant Deputy Director
told us that part of his intent in applying for a PPG was to
position the state to take advantage of the flexibility and
benefits the program offered.

In a joint management assistance review of the PPG
awarded to the Georgia EPD, grantee officials told us that
they liked the flexibility that the grant offered, but had not

          11                            Report No. 1999-P00216
                                         Region 4's Performance Partnership Grants

                    yet used any funds outside the specific media that provided
                    the funds.

                    To the extent that PPG grant recipients continue to operate
                    the same way they operated under categorical grants, they
                    are not participating in the opportunity to redefine and
                    improve the state/federal partnership. If a recipient is not
                    examining opportunities for multi-media planning or shifting
                    funds across media to address higher priorities, it may be
                    missing an opportunity to use grant funds more effectively
                    in protecting human health and the environment.

                    Region 4 officials pointed out that grant recipients had the
                    discretion of using innovative techniques such as multi-
                    media planning and prioritization of work, but it was not a
                    program requirement. Region 4 officials also pointed out
                    that a PPG recipient (Mississippi) that we did not review
                    during our audit was moving forward with multi-media
                    planning initiatives.

FUNDING PROBLEMS    One PPG recipient encountered specific barriers that limited
AND BARRIERS MADE   its opportunity for prioritizing work and cross-media
PPGs LESS           planning. Another PPG recipient, that was pleased with the
ATTRACTIVE TO       flexibility and benefits the grant offered, reverted back to
RECIPIENTS          separate categorical grants in order to avoid payment of
                    indirect costs. Correspondingly, these same barriers limited
                    Region 4' s ability to bring about positive change through
                    their efforts to implement the PPG concept.

                    DHEC officials indicated that over the last four or five
                    years, the amount of EPA grant money declined, existing
                    work commitments were retained, and new commitments
                    were added. As a result, all funds provided for each media
                    were needed to meet the media-specific commitments in the
                    categorical work plans, many of which were required by
                    law, regulation, or policy. Region 4 officials acknowledged
                    DHEC’s concerns, but pointed out that reduced funding
                    was an Agency-wide problem. Accordingly, funds were not
                    generally available during the planning phase for application
                    to new cross-media initiatives. Further, there were no
                    excess funds at year end, or discretionary funds during the


                              12                           Report No. 1999-P00216
                     Region 4's Performance Partnership Grants

year which could theoretically be targeted to meet
prioritized needs of different media.

The second flexibility barrier reported by DHEC related to
state reporting requirements that obligated officials to keep
track of state funds by specific media. DHEC officials
maintained records which enabled them to tell the State
Legislature exactly how funds were spent and the source of
the funds. DHEC traced expenditures to activities for
specific media. The source of funds was traced back to the
state appropriation or, in the case of EPA funding, to the
media which provided the funds through the PPG. Tracing
funds from “cradle-to-grave” discouraged DHEC officials
from engaging in cross-media activity or shifting funds from
one media to another. DHEC was also reluctant to report
to the South Carolina Legislature that funds provided under
an appropriation for one media were used to fund an
activity in a different media. This reluctance also carried
over to EPA funds.

Clemson University’s Department of Pesticides Regulation
(DPR) reported that it was well pleased with the flexibility,
benefits and administrative savings provided by its PPG
during fiscal year 1998, but reverted back to three separate
cooperative agreements for fiscal year 1999 for reasons
beyond the control of Region 4 or itself. State and Clemson
University policy required that large grants and cooperative
agreements ($200,000 or more) absorb a portion of the
University’s indirect costs. In 1998, the indirect cost rate
was approximately 15.5 percent. Combining the three
cooperative agreements in a single PPG placed DPR in the
large grant category and obligated it to pay indirect costs.
For fiscal year 1999, DPR concluded the benefits realized
from the PPG did not offset the obligation to pay indirect
costs and reverted back to separate cooperative agreements
because none of the three cooperative agreements
individually exceeded the $200,000 threshold that triggered
payment of indirect costs.




          13                           Report No. 1999-P00216
                                      Region 4's Performance Partnership Grants

ADMINISTRATIVE   The Guidance made it clear that PPGs were expected to
SAVINGS NOT      reduce administrative costs, in terms of both dollars and
CONSISTENTLY     time, by reducing the overall number of grant applications,
REALIZED         work plans, reports and certifications associated with
                 traditional, single media federal grants. The three PPG
                 recipients that we reviewed reported mixed results. Grantee
                 officials from EPD and DPR reported that the PPG reduced
                 their overall administrative burden. However, grantee
                 officials from DHEC reported that their PPG actually
                 increased administrative costs even though their primary
                 objective in applying for a PPG was administrative savings.
                 Although grantee officials could not precisely quantify the
                 administrative time spent on their PPG, they estimated it to
                 be approximately 11 staff days more than they spent on all
                 six categorical media grants for the previous year.

                 DHEC officials also expressed concern that the fiscal year
                 1998 PPG increased their overall financing costs because
                 Region 4 did not award the grant timely. Region 4 did not
                 award DHEC any PPG funds until all six media programs
                 could be fully funded. This obligated DHEC to spend state
                 funds to finance the EPA portion of five media programs
                 that could have been funded sooner if categorical grants had
                 been awarded. Specifically, the fiscal year 1998 PPG was
                 awarded 40 days after the average date of award for the six
                 categorical media grants for fiscal year 1997. Some of the
                 delay may be attributed to the fact that EPA and state
                 officials were just learning how to process PPGs in 1998.
                 Region 4 also encountered special circumstances that
                 delayed all grants awards at the beginning of fiscal year
                 1998. However, the funding delay was partially attributed
                 to Region 4's decision to not award any funds to DHEC
                 until all necessary paper work had been completed for all six
                 media that were ultimately included in the PPG. Regardless
                 of the specific reasons for delaying the PPG award, DHEC
                 officials felt that it increased their overall financing costs
                 compared to prior year categorical grants. We recognize
                 that partially funding a PPG or otherwise advancing PPG
                 funds before full funding is available for all PPG media may
                 entail significant effort. However, we believe the issue
                 needs to be clearly addressed because potential PPG


                           14                           Report No. 1999-P00216
                                       Region 4's Performance Partnership Grants

                  recipients contemplating applying for a PPG will likely need
                  to know when EPA funding will be made available to them.

CONCLUSION        Misconceptions and uncertainties about PPG benefits and
                  requirements made some categorical grant recipients less
                  likely to apply for PPGs. Two delegated states that were
                  awarded environmental PPGs basically adhered to the more
                  rigid categorical grant requirements and had not taken
                  advantage of opportunities to use funds outside the specific
                  media that provided the funds. Uncertainties about Region
                  4’s expectations concerning the use of PPG funds combined
                  with state reporting requirements may have discouraged at
                  least one delegated state from considering the flexibility of
                  cross-media planning and prioritization of work in order to
                  use grant funds more effectively. The same delegated state
                  reported that the process of replacing categorical grants
                  with a PPG actually increased its administrative and
                  financing costs because it delayed EPA funding for that
                  fiscal year. Collectively, these factors adversely affected the
                  opportunity for Region 4 and its state agencies to take full
                  advantage of the benefits and flexibility that PPGs offered.

RECOMMENDATIONS   We recommend that the Regional Administrator:

                         2-1     Develop a plan for discussing the PPG
                                 concept with grant recipients to ensure that
                                 they fully understand the benefits and
                                 flexibility offered by this type grant. We
                                 further recommend that the Regional
                                 Administrator consider designating a specific
                                 Region 4 representative that is responsible
                                 for maintaining ongoing communications
                                 with current and potential PPG recipients.

                         2-2     Strongly encourage PPG recipients to initiate
                                 cross-media planning and prioritization of
                                 work in order to take full advantage of
                                 opportunities to use funds more effectively.

                         2-3     Work with DHEC to determine if the
                                 specific barriers related to limited funding


                            15                            Report No. 1999-P00216
                                          Region 4's Performance Partnership Grants

                                    and state reporting requirements can be
                                    resolved or mitigated.

                             2-4    Work with DHEC to determine if there are
                                    options for reducing administrative costs.

                             2-5    Consider partial funding of PPGs at the
                                    beginning of the fiscal year if it is not
                                    practical to fully fund all media programs
                                    included in the PPG at that time.

REGION 4's COMMENTS   We discussed the proposed draft report with Region 4
AND OIG EVALUATION    officials and made some changes based on their input. On
                      August 3, 1999, we issued a draft report to the Regional
                      Administrator for review and comment. We extended the
                      standard 30-day response period by an additional two
                      weeks, but still did not receive any written comments.
                      Therefore, we issued the final report without a response
                      from the Regional Administrator.




                               16                           Report No. 1999-P00216
                                          Region 4's Performance Partnership Grants

                         CHAPTER 3

      REGION 4 COULD IMPROVE PROGRAMMATIC
      ACCOUNTABILITY BY INCREASING THE USE
         OF CORE PERFORMANCE MEASURES

                      Region 4 needs to emphasize the inclusion of applicable
                      CPMs in the work plans of PPG recipients consistent with
                      the EPA/ECOS memorandum dated August 20, 1997. The
                      fiscal year 1998 work plans for the environmental PPG
                      awarded to DHEC did not include 29 of the 47 applicable
                      CPMs. Also, the fiscal year 1998 work plans for the eight
                      agricultural PPGs awarded to various state agencies did not
                      specifically include the three CPMs that the RPO
                      determined were applicable. Although Region 4 made
                      substantial progress during fiscal year 1999, the negotiated
                      work plans still did not include all applicable CPMs. There
                      were two primary reasons for the omission of CPMs from
                      the work plans of PPG recipients: (1) the responsibility for
                      negotiation of PPG recipients’work plans was shared by
                      several PPOs with no single individual or office having
                      overall responsibility for confirming that all CPMs were
                      included; and (2) multi-year work plans had been previously
                      negotiated for several media programs and PPOs were
                      reluctant to renegotiate existing agreements. When CPMs
                      were omitted from work plans, PPG recipients generally
                      measured and reported performance based primarily on the
                      accomplishment of specific activities rather than
                      environmental results. This made it more difficult to
                      measure progress in meeting environmental goals.

SHARED                The Guidance for PPGs stated that one of EPA’s
RESPONSIBILITY FOR    fundamental goals was to design and incorporate
NEGOTIATION OF CPMs   accountability provisions in PPGs that began the process of
SLOWED PROGRESS       moving programs toward the use of results-oriented
                      measures of environmental and program performance that
                      were understandable and meaningful to the public. On
                      August 20, 1997, EPA’s Deputy Administrator and the
                      President of ECOS signed a memorandum detailing their


                                17                          Report No. 1999-P00216
                    Region 4's Performance Partnership Grants
efforts to develop a revised set of CPMs for use in
measuring environmental progress of PPG recipients.

We reviewed the fiscal year 1998 work plans for the
environmental PPG awarded to DHEC and agricultural PPG
awarded to DPR to determine what progress Region 4 had
made in negotiating CPMs with PPG recipients. The fiscal
year 1998 environmental PPG awarded to DHEC covered
six different programs. Representatives from DHEC and
Region 4's PPOs negotiated work plans for the six
programs. The following table summarizes the number
CPMs applicable to each program and the number of CPMs
actually included in the negotiated work plans. Region 4's
PPOs assisted us in compiling the statistics presented in the
table below because: (1) CPMs were periodically added,
deleted, combined or modified, (2) the applicability of some
CPMs to specific programs was subject to interpretation,
and (3) not all CPMs were incorporated verbatim in the
work plans of PPG recipients.

     Media         Number of CPMs      Number CPMs
                   Applicable To       That Were In FY
                   DHEC                1998 Work Plans
  Air                     19                    0
  RCRA                     4                    2
  Surface Water           17                    9
  Ground Water             1                    1
  PWSS                     3                    3

  UIC                      3                    3

  TOTALS                  47                   18

Region 4 officials pointed out that negotiation of DHEC’s
fiscal year 1998 work plans began in April or May of 1997
and was probably completed by August 20, 1997 when the
EPA/ECOS agreement was finalized. They also felt that
DHEC’s fiscal year 1999 work plans would be more
representative of their progress in negotiating CPMs. We
performed a less detailed review of DHEC’s fiscal year

          18                          Report No. 1999-P00216
                    Region 4's Performance Partnership Grants
1999 work plans to confirm progress had been made, but
the CPMs negotiated for each media could not be easily
identified and the overall progress quantified. Although
Region 4's PPO for the Air program successfully
incorporated all applicable CPMs in DHEC’s fiscal year
1999 work plan, DHEC gave only “conditional acceptance”
to more than a third of the commitments. DHEC’s reasons
for the “conditional acceptance” included inadequate
funding and disagreement with commitment dates. PPOs
for other media areas also voiced concerns that DHEC
would have difficulty meeting CPM commitments. For
example, Region 4's PPO for the Resource Conservation
Recovery Act (RCRA) was concerned that a year 2005
commitment could not be met because the baseline data had
not been developed in 1997.

The fiscal year 1998 agricultural PPG awarded to DPR
replaced three separate Pesticides cooperative agreements
that covered enforcement, certification and a special
Pesticides program. The RPO acknowledged that at least
three CPMs were applicable to the Pesticides program, but
were not specifically included in DPR’s negotiated work
plan for fiscal year 1998. According to the RPO, fiscal year
1998 negotiated work plans for the other seven agricultural
PPGs awarded by Region 4 also omitted specific references
to CPMs. The RPO offered two possible explanations for
not specifically addressing CPMs when negotiating work
plans: (1) agricultural PPG recipients were not part of
ECOS and had not been involved in the discussions and
decisions related to CPMs; and (2) national guidance for
agricultural PPGs still had not been updated to address
EPA’s expectations related to the negotiation of CPMs even
though the guidance for fiscal year 2000 had been issued.
Although the negotiated work plans did not specifically
include CPMs, the RPO felt that the goals and objectives
described by the CPMs were being met. For example, state
reporting requirements associated with categorical grants
such as certification and training were continued under the
PPG program. The RPO felt that these reporting
requirements captured the philosophy and intent of most
CPMs.



          19                          Report No. 1999-P00216
                                         Region 4's Performance Partnership Grants
                     Although Region 4 officials assured us that negotiating
                     work plans with PPG recipients that included applicable
                     CPMs was a high priority, Region 4 had not established
                     specific controls to ensure that this goal was achieved. In
                     our opinion, a significant factor was that singular
                     responsibility had not been established for ensuring that all
                     applicable CPMs were incorporated in the media work
                     plans. Region 4 had not designated a specific individual or
                     office that was responsible for determining if applicable
                     CPMs were incorporated in the work plans of PPG
                     recipients. To obtain this information, we needed to ask the
                     PPOs for each media about the CPMs that were in their
                     specific work plan. As discussed above, the emphasis
                     placed on negotiating CPMs varied by PPO. When CPMs
                     were not included in media work plans, we did not see any
                     reports to upper management concerning the progress that
                     was being made, or the obstacles that were being
                     encountered, regarding Region 4's goal of negotiating
                     CPMs with PPG recipients. This caused us to believe that
                     making a specific individual or office responsible for
                     confirming that media work plans contained all applicable
                     CPMs would help Region 4 meet its goal.

REGION 4 WAS         The existence of multi-year work plans that preceded the
RELUCTANT TO         award of a PPG was another factor that slowed progress in
RENEGOTIATE MULTI-   negotiating CPMs with PPG recipients. At the time the
YEAR WORK PLANS      fiscal year 1998 CPMs were finalized and the PPG was
THAT EXCLUDED CPMs   awarded to DHEC, several of the media already had
                     negotiated work plans in place that covered more than one
                     fiscal year, including 1998. According to the PPOs that
                     were responsible for negotiating the CPMs, they were
                     reluctant to attempt to renegotiate the existing agreements.
                     Instead, they concluded it would be appropriate to wait until
                     a new work plan was negotiated to include the applicable
                     CPMs.

                     The joint management assistance review that the OIG and
                     Region 4 performed on the PPG awarded to the EPD
                     disclosed a similar delay in negotiating CPMs. In this case,
                     a PPA was used to replace the specific media work plans.
                     However, all program-specific negotiations for fiscal year
                     1998 PPA had been completed before the EPA/ECOS

                               20                           Report No. 1999-P00216
                                          Region 4's Performance Partnership Grants
                      agreement on CPMs was finalized. Although Region 4 and
                      EPD made a commitment to implement the EPA/ECOS
                      agreement, neither party chose to reopen negotiations to
                      include the new CPMs in the fiscal year 1998 PPA.

CONCLUSION            Region 4 and its PPG recipients had not fully implemented
                      the agreement that EPA negotiated with ECOS concerning
                      the use of CPMs that were intended to make work plan
                      commitments more results-oriented and measure progress in
                      terms of environmental outputs and outcomes. Although
                      Region 4 officials assured us that negotiating CPMs with
                      PPG recipients was a high priority, the fiscal year 1998
                      work plans that we reviewed did not consistently include all
                      applicable CPMs. This occurred because several PPOs
                      shared responsibility for negotiating CPMs and Region 4 did
                      not have specific controls for confirming that work plans
                      included all applicable CPMs. Progress in negotiating
                      CPMs was also slowed by the reluctance of Region 4 and
                      PPG recipients to renegotiate multi-year work plans. These
                      delays in negotiating CPMs made it more difficult to
                      measure progress in meeting environmental goals.

RECOMMENDATIONS       We recommend that the Regional Administrator:

                              3-1.   Assign responsibility for monitoring progress
                                     in getting applicable CPMs in PPG
                                     recipients’work plans to a specific individual
                                     or office. This individual or office should
                                     make periodic reports to the Regional
                                     Administrator on the progress that is being
                                     made and any obstacles that need to be
                                     overcome.

                              3-2.   Determine if it is feasible to renegotiate
                                     multi-year work plans with PPG recipients in
                                     order to incorporate CPMs that are better
                                     indicators of environmental performance.

REGION 4's COMMENTS   We discussed the proposed draft report with Region 4
AND OIG EVALUATION    officials and made some changes based on their input. On
                      August 3, 1999, we issued a draft report to the Regional
                      Administrator for review and comment. We extended the

                                21                          Report No. 1999-P00216
                     Region 4's Performance Partnership Grants
standard 30-day response period by an additional two
weeks, but still did not receive any written comments.
Therefore, we issued the final report without a response
from the Regional Administrator.




          22                           Report No. 1999-P00216
                                                         Region 4's Performance Partnership Grants


                                                                         APPENDIX I
                       ABBREVIATIONS & DEFINITIONS



                                     ABBREVIATIONS

ADEM         Alabama Department of Environmental Management
DHEC         Department of Health and Environmental Control, State of South Carolina
DPR          Department of Pesticides Regulation, Clemson University
EPA          Environmental Protection Agency
EPD          Environmental Protection Division, State of Georgia
GAO          General Accounting Office
GPRA         Government Performance Results Act
OIG          Office of Inspector General
PWSS         Public Water Supply Supervision
RCRA         Resource Conservation Recovery Act
UIC          Underground Injection Control

                                       DEFINITIONS

Administrative PPG

             An Administrative PPG is the simplest type of PPG where essentially all of the
             grantee’s commitments are contained in separate categorical media work plans.
             The purpose of this type PPG is primarily to obtain administrative flexibility.

Agricultural PPG

             A single grant that combines multiple grants or cooperative agreements that were
             previously awarded to funds different activities related to a specific media. Region
             4 used this type PPG to combine various Pesticides activities such as certification
             and enforcement. Agricultural PPGs were sometimes referred to as Pesticides PPGs
             by Region 4.

Categorical Grant

             Media-specific or multi-media grant for a particular program or narrowly
             defined activities.



                                              23                           Report No. 1999-P00216
                                                         Region 4's Performance Partnership Grants
Core Performance Measures (CPMs)

            CPMs are environmental indicators, program outcomes and program
            outputs used by EPA and states to track environmental and program
            progress and to explain accomplishments to the public. Yearly, EPA’s
            national program offices and ECOS agree to a set of national core
            performance measures to be used in developing PPGs and performance
            partnership agreements (PPAs).

Environmental PPG

            A single grant to a delegated state that combines multi-media funds such as Air or
            Water and replaces multiple categorical grants.

Environmental Council of States (ECOS)

            ECOS is a national nonpartisan, nonprofit association of state and territorial
            environmental commissioners.

National Environmental Performance Partnership System (NEPPS)

            A national agreement between EPA and states which focuses joint efforts
            on environmental results and accountability. PPAs/PPGs are tools used to
            implement NEPPS.
Outcome

            The environmental result, effect, or consequence that will occur from
            carrying out an environmental program or activity that is related to an
            environmental or programmatic goal or objective.
Output

            An environmental activity or effort and associated work products related to
            an environmental goal or objective that will be produced or provided over a
            period of time or by a specified date.

Performance Partnership Agreement (PPA)

            A strategic document with negotiated environmental priorities and goals
            agreed to by the Regional Administrator and a state which may also be used
            as a work plan for a grant.




                                              24                           Report No. 1999-P00216
                                                        Region 4's Performance Partnership Grants
Performance Partnership Grant (PPG)

             A single grant made to a state from grant funds allocated and otherwise
             available for more than one existing categorical grant program. PPGs are
             voluntary and provide states the option to combine funds from two or more
             of their categorical grants into one or more PPGs.

Program Project Officer (PPO)

             The official designated as EPA’s program contact with a grant recipient.
             PPOs are responsible for monitoring the program-specific aspects of PPGs.

Regional Project Officer (RPO)

             The individual appointed by the Regional Administrator to serve as Project
             Officer for a PPG.




                                             25                           Report No. 1999-P00216
                            Region 4's Performance Partnership Grants




(This page intentionally left blank.)




                 26                           Report No. 1999-P00216
                                                         Region 4's Performance Partnership Grants

                                                                         APPENDIX II
                                     DISTRIBUTION
Office of Inspector General
       Inspector General (2410)
       Deputy Assistant Inspector General for Internal Audits (2421)
       Headquarters Audit Liaison (2421)
       Divisional Inspectors General for Audit

EPA Headquarters Office
     Assistant Administrator for Air & Radiation (6101)
     Assistant Administrator for Water (4101)
     Assistant Administrator Office of Solid Waste & Emergency Response (5101)
     Assistant Administrator for Administration & Resources Management (3101)
     Associate Administrator for Congressional & Intergovernmental Relations (1301)
     Deputy Associate Administrator Office of State & Local Relations (1306)
     Director Office of Grants & Debarment (3901R)
     Director Regional Operations (1108)
     Agency Followup Official (2710)
     Agency Followup Coordinator (3304)
     Audit Liaison Office of Administration & Resources Management (3102)

Region 4
       Deputy Regional Administrator
       Assistant Regional Administrator for Policy & Management
       Regional Project Officer
       Audit Followup Coordinator




                                               27                          Report No. 1999-P00216
